No. 20-297

In the Supreme Court of the United States
TRANS UNION LLC,
Petitioner,
v.
SERGIO L. RAMIREZ,
Respondent.

CERTIFICATE OF SERVICE
I, Andrew J. Pincus, counsel for Amici Curiae The Chamber of Commerce of
the United States of America and National Federation of Independent Business,
hereby certify that on this 8th day of February, 2021, I caused the Brief of The
Chamber of Commerce of the United States of America and National Federation of
Independent Business as Amici Curiae In Support of Petitioner to be served on the
following counsel:
Paul D. Clement
Kirkland & Ellis
1301 Pennsylvania Ave., N.W.
Washington, DC 20004
Tel. 202-389-5000
paul.clement@kirkland.com
Attorney for Petitioner

Samuel Issacharoff
40 Washington Square South
New York, NY 10012
Tel. 212-998-6580
Si13@nyu.edu
Attorney for Respondent

James Arthur Francis
Francis Mailman Soumilas, P.C.
1600 Market Street, Suite 2510
Philadelphia, PA 19103
Tel. 215-735-8600
jfrancis@consumerlawfirm.com
Attorney for Respondent

Andrew J. Ogilvie
Ogilvie & Brewer, LLP
3450 Sacramento St., #413
San Francisco, CA 94118
Tel. 415-378-4838
andy@ogilvie-brewer.com
Attorney for Respondent

I further certify that all parties required to be served have been served.

/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

